No.

In The
Supreme Court of the United States

ALFRED HANZY, JR.,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 17th day of August,
2020, I filed the original and ten (10) copies of the Petition of Writ of Certiorari with
Appendix and Motion for Leave to Proceed In Forma Pauperis with the United
States Supreme Court via UPS Ground Transportation. I further certify that I
served one copy of said Petition via UPS Ground Transportation addressed to the
following:

Solicitor General of the United States
Department of Justice

950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530

Jennifer May-Parker
Phillip A. Rubin
OFFICE OF THE UNITED STATES ATTORNEY

150 Fayetteville Street, Suite 2100
Karen R. Taylor Z

Raleigh, North Carolina 27601
Gibson Moore Appellate Services, LLC
P.O. Box 1460
Richmond, VA 23218

Counsel for Respondent
For:

Kelly Margolis Dagger
Counsel of Record

Paul K. Sun, Jr.

Ellis & Winters LLP

Post Office Box 33550

Raleigh, North Carolina 27636

(919) 865-7000

Counsel for Petitioner
Signed and subscribed before me on this 17th day of August, 2020

Bradfétd E. Moore
Notary

Bradford E. Moore
NOTARY PUBLIC
Commonwealth of Virginia

Reg. #7241026
Commission Exp. 4/30/2021

 
